TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Internal Revenue Service Fiscal
                 Year 2013 Improper Payment Reporting
                Continues to Not Comply With the Improper
                 Payments Elimination and Recovery Act



                                         March 31, 2014


                             Reference Number: 2014-40-027




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                           IRS did not publish annual reduction targets or
FISCAL YEAR 2013 IMPROPER                              report an improper payment rate of less than
PAYMENT REPORTING CONTINUES                            10 percent for the EITC.
TO NOT COMPLY WITH THE IMPROPER                        IRS management has indicated that the IRS and
PAYMENTS ELIMINATION AND                               the Department of the Treasury are in continued
RECOVERY ACT                                           discussions with the Office of Management and
                                                       Budget to obtain its approval to develop
                                                       supplemental measures that are appropriate to
Highlights                                             gauge the impact of EITC compliance and
                                                       outreach efforts in lieu of developing error
Final Report issued on March 31, 2014                  reduction targets.
                                                       Finally, although risk assessments were
Highlights of Reference Number: 2014-40-027            performed for each of the programs that the
to the Internal Revenue Service Chief Financial        Department of the Treasury required the IRS to
Officer.                                               assess, the risk assessment process still may
IMPACT ON TAXPAYERS                                    not provide a valid assessment of improper
                                                       payments in tax administration. As such, the
The Improper Payments Elimination and                  EITC remains the only revenue program fund to
Recovery Act (IPERA) of 2010 strengthened              be considered at high risk for improper
agency reporting requirements and redefined            payments.
“significant improper payments” in Federal
programs. The Office of Management and                 WHAT TIGTA RECOMMENDED
Budget has declared the Earned Income Tax              TIGTA made no recommendations in this report.
Credit (EITC) Program a high-risk program that
is subject to reporting in the Department of the
Treasury Agency Financial Report. The IRS
estimates that 22 to 26 percent of EITC
payments were issued improperly in Fiscal
Year 2013. The dollar value of these improper
payments was estimated to be between
$13.3 billion and $15.6 billion.
WHY TIGTA DID THE AUDIT
This audit was initiated because the IPERA
requires TIGTA to assess the IRS’s compliance
with improper payment requirements. The
objective of this review was to assess the IRS’s
compliance with the IPERA. The scope of this
review included an assessment of EITC
information the IRS provided for inclusion in the
Department of the Treasury Agency Financial
Report Fiscal Year 2013 and a review of the
IRS’s progress on previous recommendations.
WHAT TIGTA FOUND
The IRS continues to not provide all required
IPERA information to the Department of the
Treasury for inclusion in the Department of
the Treasury Agency Financial Report Fiscal
Year 2013. For the third consecutive year, the
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 31, 2014


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Internal Revenue Service Fiscal Year 2013
                                 Improper Payment Reporting Continues to Not Comply With the
                                 Improper Payments Elimination and Recovery Act
                                 (Audit # 201440018)

 This report presents the results of our annual review of the Internal Revenue Service’s (IRS)
 compliance with the requirements of the Improper Payments Elimination and Recovery Act
 (IPERA) of 20101 for Fiscal Year 2013. The IPERA requires the Treasury Inspector General for
 Tax Administration (TIGTA) to review annually the IRS’s compliance with these requirements.
 This audit is included in our Fiscal Year 2014 Annual Audit Plan and addresses the major
 management challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix V. Subsequent to
 our audit testing, the IRS received and provided to TIGTA official guidance from the Office of
 Management and Budget approving the establishment of supplemental measures for use in
 evaluating the incremental reduction in Earned Income Tax Credit improper payments. As noted
 in the IRS management response, the development of these supplemental measures is ongoing.
 As such, the guidance does not affect the IRS’s compliance with Fiscal Year 2013 IPERA
 reporting requirements. We plan to evaluate the establishment and use of these supplemental
 measures in subsequent annual reviews of improper payments.
 Copies of this report are also being sent to the IRS managers affected by the report information.
 If you have any questions, please contact me or Russell P. Martin, Acting Assistant Inspector
 General for Audit (Returns Processing and Account Services).



 1
     Pub. L. No. 111-204, 124 Stat. 2224
                                The Internal Revenue Service Fiscal Year 2013
                            Improper Payment Reporting Continues to Not Comply
                          With the Improper Payments Elimination and Recovery Act




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Continues to Not Comply With
          Improper Payments Elimination and Recovery Act Requirements .............. Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Internal Revenue Service Programs Identified for
          Improper Payment Risk Assessments ........................................................... Page 13
          Appendix V – Management’s Response to the Draft Report ....................... Page 15
              The Internal Revenue Service Fiscal Year 2013
          Improper Payment Reporting Continues to Not Comply
        With the Improper Payments Elimination and Recovery Act




                     Abbreviations

EITC           Earned Income Tax Credit
IPERA          Improper Payments Elimination and Recovery Act of 2010
IRS            Internal Revenue Service
NRP            National Research Program
TIGTA          Treasury Inspector General for Tax Administration
                            The Internal Revenue Service Fiscal Year 2013
                        Improper Payment Reporting Continues to Not Comply
                      With the Improper Payments Elimination and Recovery Act




                                           Background

Generally, an improper payment is defined as a payment that should not have been made or that
was made in an incorrect amount or to an ineligible recipient. Improper payments by Federal
Government agencies have been an issue for many years. Various ways have been put forth to
identify, measure, and reduce them, including laws specifically addressing improper payments,
an executive order, and guidance by certain oversight agencies such as the Office of
Management and Budget. In addition, agency Inspectors General serve a role by evaluating
agency information related to improper payments.
The Improper Payments Information Act of 20021 requires Federal agencies, including the
Internal Revenue Service (IRS), to estimate the amount of improper payments and report to
Congress annually on the causes of and the steps the agency is taking to reduce improper
payments. It requires agencies to address whether they have the information systems and other
infrastructure needed to reduce improper payments. The annual report must also describe steps
the agency has taken to ensure that agency managers are held accountable for reducing improper
payments.

The Improper Payments Elimination and Recovery Act of 2010 amended the
Improper Payments Information Act of 2002
The President signed the Improper Payments Elimination and Recovery Act (IPERA) of 20102
into law on July 22, 2010. The IPERA amends the Improper Payments Information Act of 2002
by strengthening agency reporting requirements and redefining “significant improper payments.”
Significant is defined as gross annual improper payments (i.e., the total amount of overpayments
plus underpayments) made in the program during the fiscal year3 reported that exceeded (a) both
2.5 percent of program outlays and $10 million of all program or activity payments or
(b) $100 million. The IPERA requires the Treasury Inspector General for Tax Administration
(TIGTA) to annually review the IRS’s compliance with the IPERA reporting requirements.
Our evaluation of the IRS’s compliance with the IPERA is incorporated into the Department of
the Treasury Office of Inspector General’s annual assessment of the Department of the
Treasury’s compliance with the IPERA. Fiscal Year 2013 was the third year Inspectors General
were required to assess agencies’ compliance with the IPERA. The Treasury Inspector General



1
  Pub. L. No. 107-300, 116 Stat. 2350.
2
  Pub. L. No. 111-204, 124 Stat. 2224.
3
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                        Page 1
                           The Internal Revenue Service Fiscal Year 2013
                       Improper Payment Reporting Continues to Not Comply
                     With the Improper Payments Elimination and Recovery Act



is required to issue a report on the annual assessment of the Department of the Treasury’s
compliance with the IPERA by April 15, 2014.
In addition, Executive Order 13520, Reducing Improper Payments and Eliminating Waste in
Federal Programs, signed by the President on November 20, 2009, further increases Federal
agencies’ accountability for reducing improper payments while continuing to ensure that Federal
programs serve and provide access to their intended beneficiaries. It requires Federal agencies to
provide their agency Inspector General with detailed information on efforts to identify and
reduce the number of improper payments in Federal programs with the highest dollar value of
improper payments. TIGTA’s evaluation of this information is published in a separate report,
the most recent being in Calendar Year 2013.4

IPERA process to identify IRS programs for improper payment risk assessment
The Department of the Treasury identifies the programs that the IRS must assess for the risk of
improper payments. The IRS used the Improper Payments Elimination and Recovery Risk
Assessment Questionnaire for Fiscal Year 2013 (the Questionnaire) and related guidance
provided by the Department of the Treasury to assess the level of risk for each identified
program. The Questionnaire computes a risk score for each program based on the IRS’s
response to the questions contained in the Questionnaire. The risk score determines whether
there is a low, medium, or high risk of improper payments in a program. The Department of the
Treasury establishes the level of risk for a program’s improper payments based on the risk score
ranges and considers programs with a risk score of 0 to 11 as low risk, 12 to 28 as medium risk,
and 29 and greater as high risk.
The IRS is required to forward the results and documentation for all risk assessments to the
Department of the Treasury. Appendix IV provides a list of the IRS programs the Department of
the Treasury identified for an improper payment risk assessment for Fiscal Year 2013. For any
program identified as having a high risk for improper payments, the IRS must provide the
following information to the Department of the Treasury for inclusion in the Department’s
annual agency financial report:
       The rate and amount of improper payments.
       The root causes of the improper payments.
       Actions taken to address the root causes.
       Annual improper payment reduction targets.
       A discussion of any limitations to the IRS’s ability to reduce improper payments.


4
 TIGTA, Ref. No. 2013-40-084, The Internal Revenue Service Is Not in Compliance With Executive Order 13520 to
Reduce Improper Payments (Aug. 2013).
                                                                                                     Page 2
                            The Internal Revenue Service Fiscal Year 2013
                        Improper Payment Reporting Continues to Not Comply
                      With the Improper Payments Elimination and Recovery Act



The Earned Income Tax Credit (EITC) has previously been declared a high-risk program by the
Office of Management and Budget; therefore, no risk assessment is required to be prepared for it.
The EITC is currently the only IRS high-risk program and the only one with information
included in the agency financial report.

The IRS uses a statistically valid method to estimate EITC improper payments
based on compliance information
The IRS uses the National Research Program (NRP) as the primary source of data to estimate the
annual EITC improper payment rate. The NRP provides the IRS with compliance information
that is statistically representative of the taxpayer population. Updated estimates of taxpayer
compliance are computed for each tax year.5 The IRS uses each tax year’s NRP results to update
the EITC improper payment rate.
Although the NRP process results in a more current estimate of the accuracy of EITC claims than
previous methods, the estimated improper payment rate for a given fiscal year is not based on
current year data. Because of the time it takes to complete the annual NRP, the IRS’s annual
estimate of the improper payment rate is based on data that are approximately three years old.
For example, EITC improper payment rates for Fiscal Year 2013 are based on information from
Tax Year 2009 tax returns that were processed in Calendar Year 2010.
This review was performed with information obtained from the Office of the Chief Financial
Officer and the Office of Research, Analysis, and Statistics, both located at the IRS National
Headquarters in Washington, D.C., during the period November 2013 through March 2014.
The scope of this review included verifying that required risk assessment Questionnaires were
completed, verifying that the EITC information the IRS provided for inclusion in the Department
of the Treasury Agency Financial Report Fiscal Year 2013 was accurate, and reviewing the
IRS’s progress on previous recommendations. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




5
 A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 3
                            The Internal Revenue Service Fiscal Year 2013
                        Improper Payment Reporting Continues to Not Comply
                      With the Improper Payments Elimination and Recovery Act




                                     Results of Review

The Internal Revenue Service Continues to Not Comply With Improper
Payments Elimination and Recovery Act Requirements
The IRS continues to not provide all required IPERA information to the Department of the
Treasury for inclusion in the Department of the Treasury Agency Financial Report Fiscal
Year 2013. For the third consecutive year, the IRS did not publish annual reduction targets or
report an improper payment rate of less than 10 percent for the EITC. According to the IPERA,
continued noncompliance will result in additional reporting requirements as well as a review of
Department of the Treasury, and potentially IRS, funding by the Office of Management and
Budget. Figure 1 provides a summary of our evaluation of IRS compliance with the IPERA.
           Figure 1: IRS Compliance With Improper Payment Requirements
               for the EITC Program for Fiscal Years 2011 Through 2013

                    IPERA Requirement                                          Provided by the IRS
                                                                      Fiscal         Fiscal          Fiscal
                                                                     Year 2011      Year 2012       Year 2013
Conduct a program-specific risk assessment for each                      Yes            Yes             Yes
program or activity that conforms with Section 3321 of
Title 31 U.S.C.
Publish a programmatic corrective action plan for the                    Yes            Yes             Yes
EITC.
Publish an improper payment estimate for the EITC.                       Yes            Yes             Yes
Publish annual reduction targets for the EITC and                         No             No             No
discuss progress toward meeting those targets.
Report an improper payment rate of less than 10 percent                   No             No             No
for the EITC.
Report on efforts to recapture EITC improper payments.                   Yes            Yes             Yes
Source: TIGTA’s review of IRS EITC information provided to the Department of the Treasury for inclusion in the
Department of the Treasury Agency Financial Reports for Fiscal Years 2011 through 2013.

As Figure 2 illustrates, the IRS has made little improvement in reducing EITC improper
payments since being required by the Improper Payments Information Act of 2002 to report
estimates of these payments to Congress.

                                                                                                        Page 4
                            The Internal Revenue Service Fiscal Year 2013
                        Improper Payment Reporting Continues to Not Comply
                      With the Improper Payments Elimination and Recovery Act



                         Figure 2: Estimated EITC Improper Payments
                              for Fiscal Years 2003 Through 2013

                                                                 Minimum                  Maximum
                        Minimum             Maximum              Improper                 Improper
                        Improper            Improper             Payments                 Payments
                       Payments6            Payments              Dollars                  Dollars
      Fiscal Year      Percentage          Percentage            (Billions)               (Billions)

          2003              25%                30%                   $9.5                    $11.5
          2004              22%                27%                   $8.6                    $10.7
          2005              23%                28%                   $9.6                    $11.4
          2006              23%                28%                   $9.8                    $11.6
          2007              23%                28%                  $10.4                    $12.3
          2008              23%                28%                  $11.1                    $13.1
          2009              23%                28%                  $11.2                    $13.3
          2010              24%                29%                  $15.3                    $18.4
          2011              21%                26%                  $13.7                    $16.7
          20127             21%                25%                  $11.6                    $13.6
          2013              22%                26%                  $13.3                    $15.6
          Total                                                    $124.1                   $148.2
     Source: Department of the Treasury Performance and Accountability Reports for Fiscal Years 2003
     through 2010 and Department of Treasury Agency Financial Reports for Fiscal Years 2011 through 2013.

As we reported in August 2013,8 the IRS’s estimates of Fiscal Year 2012 improper EITC
payments were understated. They were based on the assumption that a provision in the
American Recovery and Reinvestment Act of 2009 (Recovery Act)9 that increased the EITC for
certain taxpayers would expire at the end of 2010. However, the Tax Relief, Unemployment
Insurance Reauthorization, and Job Creation Act of 201010 extended the provision through
December 2012. It was later extended through December 2017 by the American Taxpayer


6
  For Fiscal Year 2005 through Fiscal Year 2009, the IRS computed the minimum and maximum improper payment
rates (referred to as the upper and lower bounds) using different sets of assumptions concerning the compliance of
EITC claimants who fail to show up for the NRP audit.
7
  The Fiscal Year 2012 improper payment estimates were understated. The estimates do not reflect the extension of
the additional EITC for families with three or more children.
8
  TIGTA, Ref. No. 2013-40-084, The Internal Revenue Service Is Not in Compliance With Executive Order 13520 to
Reduce Improper Payments (Aug. 2013).
9
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
10
   Pub. L. No. 111-312,124 Stat. 3299 (2010).
                                                                                                          Page 5
                            The Internal Revenue Service Fiscal Year 2013
                        Improper Payment Reporting Continues to Not Comply
                      With the Improper Payments Elimination and Recovery Act



Relief Act of 2012.11 The IRS’s estimates did not take into account the extension of the
additional EITC for families with three or more children. As a result, the Fiscal Year 2012
improper payment estimates were understated. The extended EITC provision was correctly
included in the IRS’s Fiscal Year 2013 estimates of EITC improper payments.
The Fiscal Year 2013 estimates also include EITC underpayments, which have not been included
in IRS’s estimates in the past. The Department of the Treasury Agency Financial Report Fiscal
Year 2013 states that underpayments increased the overall improper payment rate by less than
0.05 percent. The IRS estimate of $60.3 billion total EITC claims in Fiscal Year 2013 was used
to calculate the estimated minimum and maximum EITC improper payment amounts. The
estimated improper payment rate and resulting dollar estimates will increase or decrease as the
number and/or amount of EITC claims received in a given tax year increases or decreases.

Improper payment risk assessments may not provide a reliable assessment of the
risk of improper payments in tax administration
In January 2013, TIGTA reported12 that the IPERA risk assessment process did not provide a
reliable assessment of improper payment risk for IRS revenue program funds.13 We found that
the definition of an IRS program affects the reliability of the risk assessment. The IRS
administers the tax law by establishing broad programs focused on helping taxpayers meet their
tax responsibilities, i.e., processing tax returns and enforcing the law, to ensure that everyone
meets their obligation to pay taxes. Limiting the assessment of the risk of improper payments to
fund groups (e.g., the verification of one tax credit) may significantly underestimate the risk of
improper payments to tax administration.
In addition, we reported that risk assessments were not performed in compliance with
Department of the Treasury guidelines. Department of the Treasury guidance states that the risk
assessments should be conducted by a team of reviewers knowledgeable in the types of payments
for each of the program fund groups. However, the IRS assigned completion of some of the risk
assessments to individual employees who were not always knowledgeable about the program
fund being assessed. In addition, the IRS did not maintain adequate documentation to support its
assessment.
Finally, we reported that the Questionnaire did not effectively address risks associated with tax
refund payments. We found that the Questionnaire contained questions that did not apply to the
IRS’s revenue program funds, yet an answer to these questions was required. Specifically, for
those questions that applied to tax administration, the Questionnaire required a yes or no

11
   Pub. L. No. 112-240,126 Stat. 2319 (2013).
12
   TIGTA, Ref. No. 2013-40-015, Improper Payments Elimination and Recovery Act Risk Assessments of Revenue
Programs Are Unreliable (Jan. 2013).
13
   The IRS’s custodial activity includes revenues collected and refunds disbursed. However, in this report the
general term “revenue” is used in place of “custodial.” The revenue program funds for which the IRS performed
risk assessments generally represent specific individual tax credits or refund payments.
                                                                                                        Page 6
                            The Internal Revenue Service Fiscal Year 2013
                        Improper Payment Reporting Continues to Not Comply
                      With the Improper Payments Elimination and Recovery Act



response to these questions. Depending on the response to these questions, the program’s risk
score could be affected. We recommended that the IRS work with the Department of the
Treasury to better identify the IRS programs to be included in the risk assessments for improper
payments and refine the Questionnaire to ensure that all questions are applicable to tax
administration and more accurately reflect the risks associated with tax refund payments,
develop a formal process for assigning responsibility for the completion of the risk assessments,
and develop a process to ensure that the Department of the Treasury guidance is being followed.
In response to our audit recommendations, the IRS met with the Department of the Treasury to
revise the risk assessment Questionnaire for revenue funds. In addition, the Office of the Chief
Financial Officer provided the business units with Fiscal Year 2013 IPERA guidance from the
Department of the Treasury that included a required documentation retention period of
five years. The Office of the Chief Financial Officer worked with the business unit executives to
ensure that the appropriate subject matter experts were identified and participated in the review
process. Following Department of the Treasury guidance, the business units developed risk
assessment teams with the knowledge and experience to ensure the accuracy of the risk
assessment of the revenue programs. However, no changes were made to how IRS programs
were identified to be assessed for improper payment risk pending the result of ongoing
discussions among the IRS, Department of the Treasury, and the Office of Management and
Budget regarding which IRS programs are to be evaluated under improper payment legislation.
As such, the Department of the Treasury still selects the fund groups for evaluation based on
each fund groups’ materiality to the IRS financial statements rather than by significant
broad-based IRS program activities.
Documentation was provided to support IRS 2013 risk assessments; however, the risk
assessment process still may not provide a valid assessment of improper payments in tax
administration.
During the course of this review, we were provided with documentation showing that risk
assessments were performed for each of the programs that the Department of the Treasury
required the IRS to assess. For Fiscal Year 2013, the Department of the Treasury selected
25 program fund groups for review—six administrative program funds and 19 revenue program
funds.14 However, the process still may not provide a valid assessment of improper payments in
tax administration. The EITC remains the only revenue program fund to be considered at high
risk for improper payments; there is no effective process to address the continued risks
associated with improper tax refund payments resulting from other refundable tax credits15 and
tax refund fraud. According to IRS management, the IRS and the Department of the Treasury
are continuing to meet with the Office of Management and Budget to determine the best way to

14
   See Appendix IV. Note: The EITC Program has been declared a high-risk program for improper payments by the
Office of Management and Budget; therefore, no formal risk assessment is required for it.
15
   A refundable credit is not limited to the amount of an individual’s tax liability and can result in a Federal tax
refund that is larger than the amount of a person’s Federal income tax withholding for that year.
                                                                                                            Page 7
                            The Internal Revenue Service Fiscal Year 2013
                        Improper Payment Reporting Continues to Not Comply
                      With the Improper Payments Elimination and Recovery Act



address improper tax refunds, including which revenue refund accounts to include in the annual
risk assessment process. Currently, improper EITC payments are addressed under the IPERA,
with improper tax refunds addressed as part of the IRS’s efforts to reduce the Tax Gap.16 This is
despite the Office of Management and Budget guidance on the IPERA that defines an improper
payment as:
        “…any payment that should not have been made or that was made in an incorrect
        amount under statutory, contractual, administrative, or other legally applicable
        requirements.”
As such, tax refunds resulting from refundable tax credits and tax refund fraud paid by the IRS in
error are an improper payment and the programs that resulted in the erroneous refund should be
evaluated under the IPERA. While the IRS has developed a number of initiatives for reducing
the Tax Gap, the IPERA is the only mechanism that requires the IRS to evaluate the causes of
improper payments, assess whether the IRS has the tools it needs to effectively reduce improper
payments, and report to TIGTA and the Office of Management and Budget on the processes and
programs it uses or plans to use to reduce improper payments.

The regulation of paid tax return preparers was previously cited as the IRS’s most
promising initiative to reduce EITC improper payments; however, Federal courts
have ruled that the IRS does not have this regulation authority
The IRS announced a plan in January 2010 to register, license, and create enforcement tools that
would impact the paid return preparer community more broadly. IRS management expected the
new return preparer program (consisting of registration, testing, education, and enforcement) to
have a positive impact on overall paid preparer compliance. These activities were to be
implemented over a three-year period. In a February 2011 TIGTA report,17 the IRS noted that its
efforts to regulate tax return preparers would drive increased EITC compliance, decrease fraud,
and reduce the improper payment rate. IRS management stated that the tax return preparer
initiative was the IRS’s most promising avenue to substantially reduce erroneous EITC
payments. The IRS further indicated that evidence suggests that unscrupulous preparers
contribute to overall improper EITC claims. Paid return preparers assisted in the preparation of
approximately 66 percent of all EITC claims in Tax Year 2008.
However, on January 18, 2013, a Federal Court enjoined the IRS from enforcing the regulatory
requirements for registered tax return preparers. The IRS appealed the Federal Court’s decision.
On February 11, 2014, the Federal Appeals Court ruled that the IRS does not have the authority
to regulate tax preparers by requiring them to pay an annual fee, pass a qualifying exam, and take


16
   The Tax Gap is the estimated difference between the amount of tax that taxpayers should pay and the amount that
is paid voluntarily and on time
17
   TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to Reduce the
Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year (Feb. 2011).
                                                                                                          Page 8
                           The Internal Revenue Service Fiscal Year 2013
                       Improper Payment Reporting Continues to Not Comply
                     With the Improper Payments Elimination and Recovery Act



annual continuing education. Although the IRS has a number of programs to monitor and
address tax return preparer EITC compliance, these programs require IRS resources to
investigate and assist tax return preparers in becoming compliant. As a result, the effectiveness
of these programs is limited to the availability of resources. The February 2014 Federal Appeals
Court ruling means that the IRS can no longer prevent tax return preparers who do not meet
minimum proficiency requirements from filing tax returns on behalf of taxpayers, including
those claiming the EITC.
The Court ruling materially affects the basis on which the IRS planned to establish a baseline for
meaningful reduction targets as previously indicated. The IRS indicated in its response to our
2012 report18 that Fiscal Year 2011 was the first year of a three-year ramp-up of this initiative.
IRS management indicated that after the program is fully established, the IRS will have a
baseline against which it can set meaningful reduction targets. However, the IRS can no longer
implement the most beneficial aspects of the tax return preparer initiative.
The IRS did not provide the Department of the Treasury or TIGTA with quantifiable improper
payment reduction targets for the EITC as required by the IPERA for a third consecutive year.
IRS management has indicated that the IRS and the Department of the Treasury are in continued
discussions with the Office of Management and Budget to obtain its approval to develop
supplemental measures that are appropriate to gauge the impact of EITC compliance and
outreach efforts in lieu of developing error reduction targets. As part of these discussions, the
IRS and the Department of the Treasury should also obtain input from the Office of Management
and Budget as to an acceptable baseline against which improvement can be measured. The IRS
has not provided us with documentation detailing the content of the discussions of those
meetings or with a time frame for the development of the supplemental measures.




18
  TIGTA, Ref. No. 2012-40-028, The Internal Revenue Service Is Not in Compliance With All Improper Payments
Elimination and Recovery Act Requirements (Mar. 2012).
                                                                                                     Page 9
                              The Internal Revenue Service Fiscal Year 2013
                          Improper Payment Reporting Continues to Not Comply
                        With the Improper Payments Elimination and Recovery Act



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Internal Revenue Service’s (IRS)
compliance with the requirements of the Improper Payments Elimination and Recovery Act
(IPERA) of 20101 for Fiscal Year 2013. The IPERA requires TIGTA to review annually the
IRS’s compliance with the IPERA reporting requirements. The scope of this review included an
assessment of the information that the IRS provided for inclusion in the Department of the
Treasury Agency Financial Report Fiscal Year 2013 and a review of the IRS’s progress on
previous recommendations. To accomplish our objective, we:
I.         Determined if certain conditions identified in prior TIGTA audits still exist. We
           reviewed the Department of the Treasury’s Joint Audit Manager Enterprise System
           reports, discussed the IRS’s corrective actions with management, and determined if the
           previous recommendations and goals had been implemented.
II.        Determined if the information the IRS provided for inclusion in the Department of the
           Treasury Agency Financial Report Fiscal Year 2013 complied with the IPERA reporting
           requirements. We compared the information contained in the agency financial report to
           the IPERA reporting requirements outlined in the Office of Management and Budget
           Circular A-123, Management’s Responsibility for Internal Control, guidance on improper
           payment reporting. We also compared the information provided by the IRS to the
           Department of the Treasury with the information contained in the agency financial report
           to ensure that the information was accurately reflected in the report. We evaluated the
           accuracy of the IRS’s estimate of the EITC improper payment rate and the associated
           dollar projections.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: controls in place to ensure that
the IRS met the reporting requirements established in the IPERA. We tested these controls by
reviewing and analyzing relevant documents, data, and calculations related to preparation of
IPERA improper payment estimate information.



1
    Pub. L. No. 111-204, 124 Stat. 2224
                                                                                            Page 10
                        The Internal Revenue Service Fiscal Year 2013
                    Improper Payment Reporting Continues to Not Comply
                  With the Improper Payments Elimination and Recovery Act



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Deann L. Baiza, Director
Roy E. Thompson, Audit Manager
Jane G. Lee, Lead Auditor
Karen C. Fulte, Senior Auditor




                                                                                          Page 11
                       The Internal Revenue Service Fiscal Year 2013
                   Improper Payment Reporting Continues to Not Comply
                 With the Improper Payments Elimination and Recovery Act



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Office of Research RAS:R
Director, Return Integrity and Corrective Services, Wage and Investment Division SE:W:RICS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer CFO
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI
       Research, Analysis, and Statistics RAS




                                                                                    Page 12
                              The Internal Revenue Service Fiscal Year 2013
                          Improper Payment Reporting Continues to Not Comply
                        With the Improper Payments Elimination and Recovery Act



                                                                                         Appendix IV

          Internal Revenue Service Programs Identified
             for Improper Payment Risk Assessments

The following IRS programs were identified by the Department of the Treasury for improper
payment risk assessments for Fiscal Year 2013.

                                                                                        Level of Risk
    IRS Program                                          Type of Program                 Identified
    Affordable Health Care Program                         Administrative                    Low
    Business Systems Modernization                         Administrative                    Low
    Federal Highway Administration (FHWA)                  Administrative                    Low
    Allocation Account
    Information Systems                                    Administrative                    Low
    Tax Law Enforcement                                    Administrative                    Low
    Taxpayer Services                                      Administrative                    Low
    Adoption Credit                                           Revenue                        Low
    Alternative Minimum Tax Credit Refunds                    Revenue                        Low
    American Opportunity Credit                               Revenue                        Low
    Build America Bonds                                       Revenue                        Low
    Child (Tax) Credit Payments                               Revenue                        Low
    Consolidated Omnibus Budget Reconciliation                Revenue                        Low
    Act (COBRA) Credit
    Corporation Tax Credit Refunds                            Revenue                        Low
    EITC Disbursements1                                       Revenue                        High
    Health Care Credit Payments                               Revenue                        Low
    Home Buyers Credit Refunds                                Revenue                        Low
    Informant Reimbursement                                   Revenue                        Low
    Making Work Pay Credit                                    Revenue                        Low



1
 The EITC Program has been declared a high-risk program for improper payments by the Office of Management
and Budget; therefore, no formal risk assessment is required for it.
                                                                                                    Page 13
                           The Internal Revenue Service Fiscal Year 2013
                       Improper Payment Reporting Continues to Not Comply
                     With the Improper Payments Elimination and Recovery Act



                                                                       Level of Risk
IRS Program                                          Type of Program    Identified
New Clean Renewable Energy Bonds                        Revenue            Low
Qualified Energy Conservation Bond                      Revenue            Low
Qualified Zone Academy Bonds                            Revenue            Low
Qualified School Construction Bonds                     Revenue            Low
Refund Collection                                       Revenue            Low
Refund Collection – Interest                            Revenue            Low
Small Business Health Insurance Tax Credit              Revenue            Low
Source: IRS Office of the Chief Financial Officer.




                                                                                 Page 14
           The Internal Revenue Service Fiscal Year 2013
       Improper Payment Reporting Continues to Not Comply
     With the Improper Payments Elimination and Recovery Act



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 15
      The Internal Revenue Service Fiscal Year 2013
  Improper Payment Reporting Continues to Not Comply
With the Improper Payments Elimination and Recovery Act




                                                    Page 16
